                               CLOSEOUT FOR M-94030010

       This case was brought to our attention on 29 March 1994 by the complainant.' He
alleged that the ~ u b j e c ton
                              , ~ two separate occasions, plagiarized materials from graduate students'
Master of Science theses3 when the subject copied theses materials into publications without
appropriate~itation.~    Our inquiry determined that the allegations of plagiarism had substance.
We learned the University had initiated a review of allegations and had completed an investigation.

        After reviewing the institution's investigation report, we began its own investigation.
Our investigation report and the NSF Acting Deputy Director's 22 March 1999 letter reflecting
his decision constitute the closeout for thiscase.

cc: Integrity, IG




                                          Footnotes Redacted



                                             Page 1 or 1
                         REPORT OF INVESTJCA1'IOIU INTO A1,LEGATIONS OF
                           MISCONDUCT IN SClENCE AND ENGINEERING

                                             SUMMARY

           The Office of Inspector General (OIG) has determined htae(-
   subject), a faculty member a                                              the University), on two
   separate occasions plagiarized materials from graduate students' Master's of Science theses
   when he copied theses materials into publications without providing authorship credit or
   appropriate citation. This conclusion is based on the University's investigation report and
   OIG's analysis of the evidence provided in the report. OIG recommends that NSF find that the
  subject committed rnisdonduct in science and take the following four actions as a fmal
  disposition in this case. First, NSF's Deputy Director should send the subject a letter of
  reprimand informing him that NSF has made a finding of misconduct in science against him.
  Second, a University official, who understands the acceptable community standards for the
  supervisionof graduate student development and training, should be required to provide annual
  assurances that the subject behaved appropriately as a mentor to his graduate students in
  connection with NSF-supported activities. Third, the subject should be required to provide
  certification that, with every NSF-supported paper, conference abstract, presentation, or report
 he submits on which he is an author, he has appropriately acknowledged all individuals
 involved with the project. This certification should be countersigned by all the participants in
 the project. NSF should inform the subject that the assurance and certificationrequirementsare
 in effect until 3 years have elapsed from the final disposition of this case. Fourth, NSF should
 require for the same period that the subject send copies of the University official's assurances
 and the certificationsto the Assistant Inspector General for Oversight in the Office of Inspector
 General for retention in that Office's confidential file.

                                         BACKGROUND

                                                    a tenured fill professor in hte-
                                                                             (the University) since
                                                that the subject was alleged to have plagiarized
material fiom two of his former mduate students' Master's of Science (M.S.) theses.
Specifically, it was alleged that the subject copied a large part of-sutdent
1 's) M.S. thesis' in a published paper (paper 1)' without referencing the thesis as the source of
the copied material or providing co-authorship for the student on the paper. Tab 1. It was


' Student 1's M.S. thesis was eneltdi-                                                          It
   further alleged that the subject copied pall            0'0          (student 2's) M.S. thesis' in
  another published paper (paper 2)4 without referencing the thesis as the sourcc of the copied
  material or providing co-authorship for the student on the paper. Tab 2. We learned that the

   1 were published. Papers 1 and 2 acknowledged NSF funded proposal,
  providing support for part of the work.6 Tabs 1 and 2. This same NSF proposal supported both
                                                                                                  d
  students were unaware of the subject's actions until a year after paper 2 and 2 years after 'aper
                                                                                                   as

  students for part of their graduate student research in the subject's laboratory at the University,
  Tab 8, pages 40-42.

                                                   OIG'S INOUIRY           *




          OIG compared text, figures, and tables in the students' theses to text, figures, and tables
  in the correspondingpapers. In paper 1, more than one-third of the text, all five figures, and
  one table, together comprising more than half of the material presented in the paper, appeared
  to be identical or substantially similar to material in student 1's thesis. The apparently copied
  material was not attributed to the thesis or distinguished7from the oker contents of paper 1 to
 show that it was derived from the thesis. Although the remaining material in paper 1 did not
 appear to have been copied from student 1's thesis, its contents appeared to have been derived
 from student 1's thesis. In paper 2, a passage of equations, three figures, and approximately
 half of the contents of 2 tables (and the associated references) appeared to be identical or
 substantially similar to material in student 2's thesis. The apparently copied material was not
 attributed to the thesis or distinguished from the other contents of the paper. The
 acknowledgment sections in papers 1 and 2 recognized students 1 and 2, respectively, for their
 "technical assistance."

        In Tabs 1 and 2, identical or substantiallysimilar text, figures, or tables in each student's
 thesis are annotated in sequentially numbered sections and cross-referenced to the
 corresponding paper.

' Student 2's M.S-.thesis was e
  -                        .   .     n         t       i       t       l       e       d         t was accepted by the
  Department at the University in 1991.
                                                                                           authored by the subject and

  NSF funded proposal




  NSP's files. The mmd citation should have been NSF &        -G
                                                               I                   The acknowledgment in paper 2
  cited NSF gran
' Throu&out-ht                       "distinmished." is used to indicate a method such as font, indentation, or
  quotaion marks, that is-used so that the A d e r c k differentiate between copied materia1 and original material in
 the document being read.                                                                                             ,
                                                           2
               UNIVERSITY'S INITIAL HANDLING OF '1.1-1EALLEGATIONS

          OIG was further informed that the University had initiated a review of allegations of
   "improper use of material in students['] M.S. theses." Tab 6, page 2. Subsequently, OIG
  received information that the University had completed an investigation and had determined
  that the subject was "guilty of misrepresenting work from [student 1 's] thesis" in paper 1 and
  that "he was guilty of academic misconduct" for "not properly acknowledg[ing student 2's)
  work" in paper 2. Tab 3, pages 2-4.

          Because OIG had not received any information directly from the University about either
  its proceedingsor the sanctions imposed, we wrote to the Dean of the College of Science.' We
 explained that under NSF's Misconduct in Science and Engineering regulation (45 C.F.R.
 4 689.8) OIG must assess independentlythe evidence related to allegations of misconduct that
 involve NSF-supported activities to determine whether NSF should take action. We explained
 that if the University's investigationprovided a sufficient evidentiary basis for our independent
 assessment, we could accept it in lieu of conducting our own investigation. We requested a
 copy of the University's investigationreport and supportingdocumentation. Tab 4.

 The Dean's Response

         In a letter to OIG, the Dean explained that when he was informed of the allegations by
 the Department chairperson, he was also told that the tenured faculty members of the subject's
 Department, minus the subject and one of paper 1's two co-authors (co-author 1): had
 convened to discuss this matter. Tab 5, page 1. At this meeting, all the tenured faculty
 members that were "present considered the violation to be extreme," and directed the subject
 and co-author 1 to "immediately submit[ 1errata to the journals requesting the addition of said
 students [sic] names to the publications." Tab 5, page 3. The Dean formed a Faculty Integrity
Committee (Integrity Committee) composed of five department chairpersons to "investigate"
the "allegations that two faculty members of the (pepartment] have published papers that have
included extensive material fiom M.S.theses without properly recognizing the source of the
material." The Dean noted that "plagiarism [was] a serious offense" and that the University
was "obliged to investigate any suspected incidence of it." Tab 6, page 1. The Integrity
Committee found "no unequivocal evidence that there was substantial misappropriation of the
students' intellectual property," and that the subject

       acted somewhat capriciously in his assignation of co-authorships versus
       acknowledgments for "technical assistance," and further that he exercised poor


                               is a tenured faculty member. He and the subject are members o f the same
         judgment in that lie consulted neither with [co-author I ] , nor with studcnts 1 1 I
          and (21,during the preparation and submission process associated with these
         papers. We also found evidence of a lack of forthrightness and honesty in [the
         subject's] dealings with these students, which we believe may be symptomatic of
         a generally hostile environment between [the subject] and his students and which
         may have exacerbated the students' perception of the lack of significant
         recognition of the contributions of their work to the papers in question. [Tab 6,
         page 4.1

 Further, the Integrity Committee found that co-author 1 was "not culpable of any professional
 misconduct in this matter." One of its recommendations was that the subject "be censured by
 the Dean in a manner that he deems appropriate." Tab 6, page 4.

         The Dean reviewed the Integrity Committee's report and other available information,
 and interviewed the students, the subject, and co-author 1. Tab 5, page 1. He found that co-
 author 1 was "not guilty of any academic misconduct with regard to the preparation and
publication of thepaper [I]." Tab 6, page 16. The Dean found that with respect to the "serious
allegations of academic misconduct" that involved two students' theses, the subject was "guilty
of two incidents of academic misconduct." Tab 6, page 14. The Dean told the subject that in
view of "both of these instances," the subject was required to do the following as a way to
rectify the situation:

        1) "write separate letters of apology to the students in which [he] acknowledge[d] that
           [he] used their intellectualproperty and published it as though it was [his] own;" and

        2) "write letters to the editors of the journals concerned in which [he] express[ed]
           regret at the oversight of acknowledging[student 11 as a co-author and [student 2's]
           contributionsby proper reference to [student Z's] thesis, and expressed [his] desire
           to publish errata to these papers at ms] own cost." Tab 6, page 15.


In addition, the subject was told that he:

        1) was "censure[dJ" for his acts of academic misconduct;

        2) should be aware that "any similar actions in the future may result in cancellation of
           [his] tenure contract and [his] separation fiom the University;" and

        3) would "not be eligible for any salary increase for three years beginning with the
           current year." Tab 6 , pages 14-15.
            OIG's review of the Integrity Comrnittce's report dete~.n~incdthat i t did not contain
    sufficient documentatiorl to allow us to assess indeper~dentlythe evrdence related to the
    allegations. We wrote to the Dean requesting that the University complete a final investigation
   report to document its conclusions and actions. We noted that the University's previous
   examination of the allegations had not been conducted pursuant to applicable institutional
   policies, and recommended that those policies be used as a guide in developing a final
   investigation report. Tab 7. The Senior Vice President for Research informed us that he had
   appointed an InvestigationCommittee. 'O

                                  THE UNIVERSITY'S INVESTIGATION"



   Committee focused on the allegation that the subject "published two scientific papers using
  material from two graduate students' Master's theses without giving the students deserved
  authorship credit" Tab 8, page 5. During the course of the investigation,it examined whether
  the subject's actions could be considered: 1) plagiarism of the students' M.S. theses, and 2)
  retaliation against the students.l 2

         The InvestigationCommittee's chronology of the major events associated with this case
 established that, shortly after students 1 and 2 started their graduate studies under the direction
 of the subject, the subject left the University on a 1-year sabbatical. In his absence, co-author 1
 was designated to supervise q d assign gradesI3 for the subject's graduate students. About 1
 month before the subject returned from his sabbatical, students 1 and 2 submitted separate
 conference abstracts of their work on which each was the first author and the subject was listed
 as a co-author. The students made their conference presentations shortly after the subject




    guidelines for the University to follow concerning alleged misconduct in science with respect to notification of the             I
                                                                                                                                     I
    Office of Scientific Integrity. The Policy contains no similar guidelines for notifying other Federal funding                    I

    agencies.                                                                                                                    I
 "We have attached to this report the directly relevant materials fiom the Investigation Committee's report. We                  I
                                                                                                                                 I
    would be pleased to provide additional information upon request.
 ''NSF's Misconduct in Science and Engineering regulation states that one form of misconduct in science is the
    "retaliation of any kind against a person who reported or provided information about suspected or alleged
   misconduct and who has not acted in bad faith." 45 CFR 5 689.l(a)(2).        This was not such a case because the acts
   d e s c n i d as retaliation-the alleged plagiarism of the students' theses in retaliation for the students leaving the
   subject's research group-occurred well before the misconduct allegations were brought to the adminisfration's
   attention. Consequently, the alleged "retaliation* was not against someone who had reported, in good faith, an
   allegation of misconduct.
"In a memorandumhet-dta                                subject requested that co-author 1 supervise and assign grades for    I
   several of his courses, such as courses for his graduate students' research and thesis. Tab 8, page 43.                   I
                                                                                                                             I
                                                           5
   returncd to rile ~ln~vcr-sit)/."'A little over l l/z years later, about 2 % years after both students'
   began working on their theses, their theses were approved and signed by their respective
  committees, which completed their degree requirements. About 3 months after students I and
  2 completed their degree requirements, each submitted a conference abstract that again listed
  each student as the first author and the subject as the co-author. The subject took leave from
  the University again shortly after the students made their conference presentations. While the
  subject was away on leave, he prepared and submitted papers 1 and 2 to the journals. Tab 8,
  pages 55-56.

         The Investigation Committee compared papers 1 and 2 to the students' theses. It was
 unable to compare these materials to the original laboratory notebooks because they were
 unavailable. Tab 8, page 20. The Investigation Committee found that text, figures, and a table
 were copied from student 1's thesis into paper 1 and that figures were copied from student 2's
 thesis into paper 2. Tab 8, pages 2 1-22. It determined that there was "no doubt that [paper 11"
 was "taken from the Master's thesis of [the subject's] student, [l]." Tab 8, page 14. Also,
 paper 2 "contain[ed] figures from the Master's thesis of [the subject's] student, [2]." Tab 8,
 page 14. The Investigation Committee first considered whether the subject committed
 plagiarism. It concluded

         that the original ideas for these works are directly traceable to earlier published
         works of [the subject], and that the [data] on which the papers are based were
         obtained upon his request and, indeed insistence, and that the interpretations of
         the [data] were dependent upon [the subject's] expertise. The Committee also
         conclude[d] that the original text prepared by [student 11 describing the
         experiment for .inclusion in his thesis was extensively revisedlrewritten by [co-
         author 11. Because of the collaborative manner in which this work was
         conducted, the Committee finds it to be shared intellectual property. Hence, the
         Committee cannot characterize [the subject's] publication of this work as an act
         of plagiari~m.~'~][Tab 8, pages 14-15.1

         Despite finding that the material was "shared intellectual property," the Investigation
Committee noted that portions of the students' work and preparation for meeting
presentations were completed in the subject's absence. Tab 8, page 23. The Investigation
Committee said the subject "asserted" that student 1 "was 'not a self motivating or self
initiating person'." Tab 8, page 22. The Investigation Committee, however, concluded that

"The students' individual lists of authored works are included in Tab 8, pages 57 and 58. Student 1 was credited
  with four publications, one conference proceeding, and four presentations. Student 2 was credited with one
  conference proceeding and three presentations.
'SAlthoughthe Investigation Committee concluded that the subject had not committed plagiarism, its discussion
  appears to focus on student 1; the Investigation Committee does not discuss the materials apparently copied from
  student 2's thesis into paper 2 with any specificity.
                                                        6
   "[tlhis [was] clearly not supported by [lie cvidcncc; boll1 [student 1 1 and Istudenl 21 \vcre
   activc in his absence . . . ." Tab 8, page 22. The Investigation Com~nitteedetermined that,

             [wlhile it is impossible, in the absence of the necessary documentary evidence
            of notes and notebooks, to determine precisely which parts of the papers were
            whose responsibility, two conclusions can be made. First, both [student 1 and
           21 were responsible, in [the subject's] absence, for beginning their projects and
           for obtaining sufficient results to prepare meeting presentations. Second, the
           fact that the thesis committees, including [the subject and co-author I], signed
           the Master's theses of [student 11 and [student 21 indicates that the thesis
           committees recognized that the theses contained the work of the students.
           [Tab 8, page 23.1

          After deciding that the subject had not committed plagiarism, the Investigation
  Committee proceeded to consider the allegations that the subject had failed to provide the
  students with authorship credit. The Investigation Committee established that the subject's
  own academic Department, "consider[ed] it to be accepted practice to award authorship to the
  student on any paper which include[d] work taken from the student's thesis."16 Tab 8, page 15.
 In addition, the Investigation Committee's review of the subject's general authorship practice
 with his previous students determined that the subject had "a commendable record of joint
 publicationwith these [other] students." Tab 8, page 15. It concluded that, although students 1
 and 2 had similarly "benefited from [the subject's] generous authorship policy," including
 "nine (9) occasions of joint authorship for [student 11 and four (4) for [student 2],"'7 the
 subject's exclusion of students 1 and 2 in this case

         contrasts sharply with his earlier authorship decisions. The Committee also
         judges this exclusion to be a departure fiom [the subject's] home department
         norm. The Committee unanimously concludes that [the subject] did commit an
         act of scientific misconduct. [Tab 8, page 15.1

        The Investigation Committee determined that, while the subject was away on leave, he
"compiled both of the papers in question, decided on authorship, and submitted the papers."
Tab 8, page 24. It also determined that,

        [slince the misconduct that the Committeehad identified is not plagiarism but is,
        rather, [the subject's] denying [student 1 and student 21 legitimate authorship
        credit, it is the attribution of authorship [sic] that constitutes misconduct in this
        case . . . . [Tab 8, page 30.1


'%e tenured faculty in the subject's Department "considered the violation to be extreme." Tab 5, page 3.
I7See footnote 14.
                                                       7
  The Investigation Committee corlcluded that neither co-author 1 nor co-author 2'' committed
  misconduct in science. Tab 8, page 30. OIG has no evidence that co-authors on either paper 1
  or paper 2 substantially participated in the authorship or attribution decisions in this case;
  consequently,they are not subjects in this investigation.

                   THE INVESTIGATION COMMITTEE'SCONCLUSION

         The Investigation Committee

         unanimously conclude[d] that [the subject] did commit an act of scientific
         misconduct by seriously deviating from his own accepted practice, by denying
         two students legitimate and deserved authorship credit on work taken from their
         Master's thesis [sic]. All Committee members judged this act to be willful.
         [Tab 8, page 16.1

 It reasoned that the subject had

        wanted to "punish" [the two students] for leaving his research group. This
        hypothesis seems tenable in light of [the subject's] apparently more restrictive
        authorship decisions once the students had rejected him as an advisor. . . . [Tab
        8, page 16.1

        The I~vestigationCommittee reviewed the sanctions that were imposed by the Dean
following the Integrity Committee's efforts and found that "[blased on the nature and
correction of this misconduct, . ..these sanctions were not grossly inappropriate." Tab 8, page
17. The report stated that the errata had been published and the letters to the students written,
as required by the Dean. Tab 8, page 17.

                                       OIG'S ANALYSIS

        For NSF to make a finding of misconduct, a preponderance of the evidence must show
that the subject committed culpable acts with a culpable state of mind. OIG believes that the
preponderance of the evidence supports the conclusion that the subject committed acts that fall
within NSF's definition of misclonduct in science, and that he acted with a culpable state of
mind.




                                faculty member in the Department
                                                                      -'   -----
                                                 8
       The Subject's Actions

              The Investigation Committee found that the subject copied text, figures, and a table in
      paper 1 from student 1's thesis and copied three figures in paper 2 from student 2's thesis. OIG
      agrees with these findings and believes that a preponderance of the evidence supports the
      conclusion that the subject copied materials verbatim from his students' theses. The subject did
      not cite the copied material to the students' theses or include either student as a co-author on the
     papers. The Investigation Committee concluded that, in failing to provide authorship credit, the
     subject committed misconduct in science, but also determined that the subject did not commit
     plagiarism. OIG agrees that the subject committed misconduct in science, but believes that by
     copying materials from the students' theses without providing authorship credit or citation to
     the theses, the subject committed plagiarism.

          The InvestigationCornmittee argued that the subject's actions in copying materials fkom
  student 1's thesis into paper 1 and from student 2's thesis into paper 2 could not be plagiarism
  because: 1) "the original ideas for these works are directly traceable to earlier published works
  of [the subject];" 2) "the [data] on which the papers [were] based were obtained upon [the
  subject's] request and, indeed insistence;" 3) "the interpretations of the [data] were dependent
  upon [the subject's] expertise," and 4) co-author 1 had "extensively revised/rewritten" the text
 of student 1's thesis. On these bases, the Investigation Committee argued that "the
 collaborativemanner in which this work was conducted" made it "shared intellectualproperty."
 Tab 8, pages 14-15. The fact that ideas in the theses were traceable to earlier work of the
 subject and that the students worked under the subject's guidance does not mean that the
 subject is entitled to claim the students' thinking and experimental efforts as his own. The
 subject's contributionsto their theses efforts do not allow him to appropriatehis students' work
 as his own, especiallywhen he had previously recognized that the theses contained the work of
 his students.'

         The Investigation Committee's findings that the subject did not commit plagiarism is
 also not consistent with the commonly understood meaning of plagiarism. Plagiarism is
 typically described as using the ideas or writings of another and presenting it as one's own" In
 this case, the subject copied words, figures, and a table, verbatim into paper 1 and three figures

I9Inhis letter of reprimand, the Dean found that the subject"used [the students'] intellectualproperty and published it as
  though it was   w]   own." As he explained to the subject, the recognition of student 1 in paper 1 "for his 'technical
  assistance', 0 falls short of proper attribution since the University and [the subject], as hk advisor, had alrea&
  recognizetithe work as that of [srudent I ] when he was awarded the M.S. degree [emphasis added].", Tab 6, pages
  14-15. In discussingthe source of the data reported in papers 1 and 2, the Investigation Committee itself said,"the
 fact that the thesiscommittees,including [the subject] and [co-author I], signed the Master's theses of [student I] and
 [student 21 indicatesthat the thesis committeesrecognizedthatthe theses contained the work of the students." Tab 8,
     page 23.
20   "Webster 11, New Riverside University Dictionary,"The Riverside Publishing Company, 1988.
                                                           9
    into paper 2, w~thoutappropriate acknowledgnlent to tlie theses. Thereby, tl~ccopied materials
    appeared to have been his and his co-authors' rather than his students' work. The sub-jec~did
    not include the students as co-authors on either paper; the subject acknowledged each student in
    each correspondingpaper as providing "technical assistance." The subject's acknowledgments
    do not provide proper attribution for the materials taken from his students' theses.

    State of Mind

           In some cases, an individual's actions compel the inference that they were done
    purposefully. An honor society of scientists, Sigma Xi, The Scientific Research Society,
    described the intent associated with acts of verbatim plagiarism:

           At one end there is a word-for-word copying of another's writing without
           enclosing the copied passage in quotation marks and identifying it in a footnote,
           both of which are necessary. . . . It hardly seems possible that anyone of college
           age or more could do that without clear intent to deceive.1211

         The Investigation Committee concluded that, in this case, the subject's failure to
 properly acknowledge the students' work was a willhl act. It viewed the subject's actions as a
 form of punishment in response to the students' decision to leave his research group. Tab 8,
 page 16. OIG believes that the preponderance of the evidence supports the conclusion that the
 subject at least acted knowingly ..hen he copied material fiom the theses into different papers
 without providingauthorship creditor citation to the student's theses.

        OIG believes that the evidence shows that the subject, an experienced graduate
 student mentor and senior author, was well aware of the commonly accepted practices for
proper attribution and authorship, Among these practices are naming the thesis author as the
co-author on the papep or distinguishing the copied material and providing a citation to the
thesis. In this case, the subject did not indicate in any way that the material copied fiom the
students' theses was not original to his paper, and, therefore, OIG need not determine what
type of recognition would have been sufficient and appropriate.                                                                      i
       The Investigation Committee stated that the subject had "directed the graduate work of
four other student.. He [had] a commendablerecord of joint publication with these students."
                                                                                                                                 I
Tab 8, page 15. It determined that the subject "markedly deviat[ed] fiom his own accepted

" Sigma Xi, The Scientific Research Society, Honor in Science 15 (1984) (quoting Definition of Plagiarism, in                I

 Wesleyan University, Middletown, CT, The Blue Book, Documents of Interat to Members of Teaching Stafland                    1
 the Student Body 59-60 (1984-85) and noting as the original source Harold C. Martin et al., The Logic and                   I
                                                                                                                             I
 Rhetoric ofExposition (3d ed. 1969)).
* In these circumstances, it is common practice to aclcnowledge the thesis as the original source of the material with   I   I
 phrases like "in partial fulfillmentof the requirementfor a M.S.degree."
                                                         10                                                              I
                                                                                                                         I
     practice by denying two students legitimate and deservcd autl~orshipcredit on work taken from
     their Master's theses." Tab 8, page 14. OIG believes that the subject's "marked[] deviati[onIn
     from his own established practices is further evidence that, in failing to provide attribution for
     material taken from his students' theses, he at least acted knowingly.

     Seriousness

            In failing to provide authorship credit or appropriate citation for the materials he took
     from the students' theses, the subject seriously deviated from accepted practices in the scientific
     community. In the subject's Department and in the broader scientific community, the extensive
     collaborative effort associated with an advisee-advisor relationship is a responsibility to treat
     the work of others' honestly. Advisors accept this responsibilityas part of their role in training
     and preparing hture. scientists intellectually, technically, and ethically in their chosen fields.
     For example, the tenured faculty in the subject's Department stated that

           [w]e take the position that it is standard, correct and usual in United States
           academia for students [sic] names to be listed as co-authors on any open
           literature publications which resulted from their thesis or dissertation work. It is
           not a matter of who is right and who is wrong, it is one of followinga procedure
           which is unquestioned in United States academic research regimen. [Tab 5,
           page 4.1

           The American Association of University Professors (AAUP) has stated that

           professors who have the guidance of students as their responsibility must
           exercise the greatest care not to appropriate a student's ideas, research, or
           presentationto the professor's benefit; to do so is to abuse power and trust.

           In dealing with graduate students, professors must demonstrate by precept and
           example the necessity of rigorous honesty in the use of sources and of utter
           respect for the work of others.PI

       Sima Xi, The ScientificResearch Society, stated with respect to the work produced by
a graduate studentunder a mentor's supervisionthat

           [tlhe graduate student is also entitled to the same treatment in respect of written
          work from laboratory heads or supervisors that the latter would expect Erom
          journal &tors and referees: the work should not be unduly delayed nor
          misappropriated What to the student may seem undue delay may legitimatelybe

23
 AAUP, Statement on Plagimkm, in Policy Documents and Reports, 79, 80 (1990) (statement numbers omitted).
                                                    11
           secn by ~ h csupervisor as a refusal to accept work of an inadcquatc standard.
           The supervisor should be prepared to send back substandard work lor as long as
           he or she is prepared to have the student remain in the department. However, if
           that work is taken and "improved" by the supervisor and published without the
           student's knowledge or permission, that is a different matter: call it plagiarism or
           plain theft.[241

         The subject's actions are made more serious because, when he ignored his
  responsibilitiesas a mentor, which the evidence shows he knew, he deprived students under his
  supervision of the appropriate acknowledgment for their efforts, the loss of which diminished
  the development of their individual reputations and credentialsin the field.25

          Publication is the coin of the realm and authorship is analogous to patents for
          inventions and copyright for creative works of literature, art, music, and
          computer software . . . . It is also critical for professional development because
          one's publication record is the basis for hiring, and career advancement through
          promotion, tenure, and awarding of funds for further research. r261

 The subject's behavior seriously deviates from that expected of an experienced member of
 the scientific community and graduate student mentor.

        Finally, the subject expressed no remorse about what he had done. The Integrity
Committee report stated that "[wlhen [the subject] was asked if he felt it would be
appropriate to send an errata, he said no rule was broken but he might do one as a good will
gesture." Tab 6, page 13. In his letter to the Investigation Committee, he concluded that he
"want[ed] to reiterate that [student 11 and [student 21 received more help from [him]and
others than any of [his] previous students, and [he was] deeply disturbed about their
ungratekl attitude exhibited towards [him]." Tab 8, page 68. Significantly, the Dean
directed the subject to "write separate letters of apology to the students in which you
acknowledge that you used their intellectual property and published it as though it was your
own." Tab 6, page 15. The subject did not do this in the letters he sent to the students. Tab
6, pages 2 1,23.


"Sigma Xi, The Scientific Research Society, "Honorin Skien&, '' 22 (1984).
=Student 2 had no published journal papers to her credit at the time the Investigation Committee wrote its report
  (See footnote 14). The Dean did not require or expect the subject to make student 2 a co-author on paper 2, but
  rather expected him to properly acknowledge student 2's thesis as the source o f three figures in the paper, which
  the subject did. Tab 6, pages 21,22, 26 and 29. Although paper 2 could be listed on student 2's resume as the
  Investigation Committee stated (Tab 8, page 17), there would be no support for any claim of authorship she might
  make.
26S!ephanie J. Bird & David E. Housman, Conducting andReporting Resemch, Professional Ethics, Spring/Summer
  1995, at 127, 145.
                                                        12
                OIG'S CONCLUSION HEGAIiDING MISCONDUCT IN S C I E N a

            OIG concludes that a preponderance of the evidence supports the finding that the
   subject at least acted knowingly when he copied text, figures, and a table from student 1's
   thesis into paper 1, which represented over half of the contents of the paper, and when he
   copied three figures from student 2's thesis into paper 2 without providing authorship credit or
   appropriate citation. OIG concludes that he was aware of his responsibilities as a mentor to
   help establish his students in their scientific careers. One of the essential components of this
   effort is the development of a publication record. By failing to provide authorship or properly
  cite their work, the subject deprived the students of appropriate credit for their work and of the
  opportunity to establish necessary credentials in their field. We agree with the Investigation
  Committee's unanimous conclusion that the subject "did commit an act of scientific
  misconduct by seriously deviating from his own accepted practice, by denying two students
  legitimate and deserved authorship credit on work taken from their Master's thesis [sic]." Tab
  8, page 16. Further, OIG believes in doing this he committed plagiarism. We, therefore,
  conclude that the subject committed misconduct in science.


                              OIG'S RECOMMENDED DISPOSITION

         Under 45 C.F.R. 5 689.2(b) in NSF's misconduct in science and engineeringregulation,
 NSF officials, in deciding what actions are appropriate when misconduct is found, should
 consider the intent with which the subject acted, the seriousness of the misconduct, any
 evidence of a pattern, and fmally, the relevance of the misconduct to other funding requests or
 awards involving the institution or individual. As discussed above, OIG believes that the
 subject acted at least knowingly when he failed to provide authorship credit or appropriate
 citation for his students' theses material.

        OIG believes that plagiarism is unacceptable in the scientific community. The subject's
actions in these two instances is even more serious because it deprived students under the
subject's direct supervision of appropriate acknowledgment for their work, a form of
recognition essential to the development of their individual reputations and professional
credentials. The subject's actions are counter to the scientific community's and NSF's
understandingand expectation of a mentor's responsibilities. NSF has a strong, long-standing
commitment to standards of excellence in the education of W e generations of scientists.27
NSF programs are designed to "expose students and new scientists and engineers to emerging
best professional practices. . . ."28 The evidence shows that the subject's actions, rather than

*'see, e.g., National Science Foundation Act of 1950 8 3,42 U.S.C. 5 1862; NSF, Working Draft GPRA Strategic
   Plan FY 1999-2003 (12 August 1997) (prepared pursuant to the Government Performance and Results Act of
   1993 9 3,5 USC 306).
*Draft NSF GPRA Strategic Plan, 12 August 1997, page 8.
                                                    13
   exenipliryingthe& "best practices" for the students,embroiled then1 in a serious misconduct in
   science case at an early stage in their careers: a disquieting episode for Master's of Sciencc
   students, who have little experience with the accepted practices of the scientific com~nunityor
   with NSF.

           The Investigation Committee argued that the subject's two acts did not represent a
   pattern of behavior, but that, given the relationship between the students29and their departure
   from the subject's research group, the two acts should rather be viewed as a single act against
   the students. Tab 8, page 3 1. This finding contradicts the Dean's statement, in his letter of
   reprimand to the subject, that he found the subject "guilty of two incidents of academic
  misconduct." Tab 6, page 14. OIG agrees with the Dean's finding. The evidence shows that
  the subject committed two distinct acts of plagiarism when he separately copied material from
  each of two student's soie-authoredtheses into two different papers. The material from the two
  theses was not commingled in the two papers. OIG believes these two separate acts are
  evidence of a pattern of misconduct.

         The University's actions addressing the subject's misconduct do not fully protect
 Federal funds. These actions fail to provide assurances that the subject will adhere to the
 community's high mentoring and scholarship standards as well as those expected by NSF,
 thereby protecting NSF's interests in educating the next generation of scientists and engineers.
 To protect Federal funds we recommend that NSF's Deputy Director take the following four
 actions:

          (1) NSF should send a letter of reprimand to the subject stating that it has
              concluded that he committed serious deviations fiom accepted practice and
              thus misconduct in science when he copied material fiom his students' theses
              into two papers without providing authorshipcredit or appropriatecitation.30

          (2) NSF should require, for 3 years from the date of the final disposition of this
              case, that a University official, who understands the acceptable community
              standards for the supervision of graduate student development and training,
              provide a signed annual assurance that the subject has adhered to the
              community's mentoring and scholarship standards in connection with
             NSF-supported activities3'




 "Students 1 and 2 met during their graduate careers and eventually married each other. OIG does not t h i i that the
  personal relationship between the students determines whether the subject committed one or two acts. The
  evidence shows that the subject, sequentially, committed two acts that victimized two different students.
'@This is a Group I action. 45 C.F.R. 5 689.2(a)(1).
" Id.

                                                         14
             (3) NSF should require, for the same period, that whenever the sub-ject is an
                 author on a paper, conference abstract, presentation, or report involving
                 NSF-supported activities, he provide a letter signed by all the participants in
                 the project certifying that they have been appropriately acknowledged for
                 their efforts.32

            (4) NSF should require for the same period that the subject send copies of the
                University official's assurances and the certifications to the Assistant
                Inspector General for Oversight in the Office of Inspector General for
                retention in that Office's confidential file on this matter.

         THE SUBJECT'S RESPONSE TO TI-IE DRAFT INVESTIGATION REPORT

          The subject's response33 to OIG's draft investigation report contained no new
  information that would cause us to modify our report. Tab 9. In his response, the subject
  reiterated many of his earlier arguments and the Committees' conclusions that he had not
  committed plagiarism.34 However, the Investigation Committee and OIG agreed that the
  subject had committed misconduct in science.

         The subject criticized the handling of the allegations against him by the institution and
 the chair of his Department. OIG's review of the Committees' reports and supporting
 documentationshowed that the subject was made well aware of the allegationsagainst him a d
 that he had ample opportunityto respond, which he did. 35

         The .subject claimed that the Investigation Committee's .report inaccurately stated the
 cost of some equipment, presentation and paper submission dates, arrival and departure dates
 for himself and the students, and incorrectly identified who wrote the titles and contents of
 abstracts that were not patt of our investigation. However, even if these statements are
 inaccurate, none of them changes OIG's frndings or conclusion that he seriously deviated from


'=  Id.
 3'As part of the subject's response to OIG's draft investigation report, he indicated that he had not received item 2
   (NSF misconduct regulation, 45 C.F.R $ 689) that was listed as an enclosure in OIG's cover letter for the draft
   report. OIG sent a copy of that regulation via overnight federal express to him. OIG noted, however, that the
   subject was sent a copy of the 2 June 1995 letter to the Dean concerning the institution's investigation, which
   included the regulation as an attachment. Tab 7.
"   Our investigationreport discusses these conclusions (pages 3,6, and 7) and explains why we do not agree with them
   (pages 9-1 1).
35 The subject quotes passages fiom an article quoting the current Chairman of the National Science Board, in which
  the Chairman discusses the desirability of keeping investigationsconfidential and separating the investigative and
  adjudicative functions at NSF. Although these practices are desirable, their less than perfect implementation by a
  university does not necessarily compromise the outcome of its investigation. In our view, in this case the
  institution's investigation of this matter was findamentally fair to the subject.
                                                        15
accepted practices when he denied'two students legitimate and deserved authorship credic on
work taken from their Master's theses and that, by doing so, he had committed plagarism.

      -The subject continued to express no remorse for what had occurred and to blame the
students for their shortcomings and behavior.a
